No.

'20-V2M3

3n

supreme Court, U.SFILED

MAR - 3 2021
OFFICE OF THP PI

Supreme Court of tje ®ntteb States
STACIBURK, a single woman representing herself,
Petitioners,
v.
DOUG DUCEY, in his official capacity as Governor of Arizona, KATIE HOBBS, in
her official capacity as Secretary of State, CLINT HICKMAN, JACK SELLERS,
STEVE CHUCRI, BILL GATES, STEVE GALLARDO, in their official capacities,
ADRIAN FONTES, in his official capacity, DOES I-X.
Respondents.

On Petition For Writ Of Certiorari
To The ARIZONA SUPREME COURT

PETITION FOR WRIT OF CERTIORARI
Staci Burk (Petitioner)
2487 S. Gilbert #106-609
Gilbert, Arizona 85295
(480) 343-4518
staci@asu.edu

ii

QUESTIONS PRESENTED
1. Did the Arizona Supreme Court violate Petitioner’s right to Equal Protection
when it denied remand for an evidentiary hearing of Petitioner’s
constitutional claims of vote denial through the cancellation of her
registration, while registrations of unqualified people remained, and those
votes were counted?
2.

Did the Arizona Supreme Court violate stare decisis because its 2021 opinion
contradicted its 2010 opinion involving the same Petitioner regarding
whether she met the definition of “elector” to bring an election challenge,
even though neither her voter registration status nor the statutory definition
of “elector” had changed?

3. Did the court clerk’s admittedly improper rejection of Petitioner’s verification
filed on December 7, 2020, constitute plain error?
4. Did the Court violate Petitioner’s First Amendment rights to petition for
redress and Due Process by considering her illegally cancelled voter
registration where she had not been given an opportunity for an evidentiary
hearing to present evidence regarding her attempts to reinstate it?

iii

PARTIES TO THE PROCEEDINGS

All parties to the proceedings are named in the caption.

iv

CORPORATE DISCLOSURE STATEMENT
Neither Petitioner nor any other party to this case is a non-governmental corporation.
Rule 29.6 does not apply.

STATEMENT OF RELATED CASES
Mi Familia Vota, et al. vs. Hobbs, (2020 U.S. Dist. LEXIS 184397, October 5, 2020),
sought an emergency Temporary Restraining Order (“TRO”) to enjoin Respondent
Hobbs from enforcing the voter registration cutoff set forth in A.R.S. 16-120, of
October 5, 2020, and to extend the deadline until 5pm October 23, 2020, citing COVID
as justification. District Court Judge Steven Logan granted the TRO and extended
the deadline for Hobbs to accept voter registration applications.
On October 13, 2020, the Ninth Circuit Court of Appeals (977 F.3d 948, October 13,
2020) reversed the District court and ordered a stay on the extension, arguing that
registration could be accomplished online or by mail. The Ninth Circuit ordered a
two-day grace period before its order went into effect (closing the registration
deadline in Arizona as of October 15, 2020).
Peterson et al. v. Purcell (CV2010-023871), Petitioner Staci Burk and David
Peterson filed an election challenge of candidate Adeladia Severson. In that case, it
was argued for purposes of standing to bring an election challenge, one did not need
to prove they were a registered voter to qualify as an “elector,” but instead required
to prove Plaintiffs met each of the criteria of being “eligible to register” to vote.
Plaintiffs met those criteria, and the Trial Court agreed. The Arizona Supreme Court
affirmed the lower court and held Petitioner Staci Burk was a qualified elector able
to bring the election challenge (even though her voter registration had apparently
been cancelled several weeks prior).

vi

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS

2

CORPORATE DISCLOSURE STATEMENT

3

STATEMENT OF RELATED CASES

4

TABLE OF CONTENTS

5

TABLE OF APPENDIX CONTENTS

7

TABLE OF AUTHORITIES

8

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

MOOTNESS EXCEPTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

5

ARGUMENT

8

A.

4

PETITIONERS BACKGROUND

8

B. ADDRESS CONFIDENTIALITY PROGRAM AND ‘PROTECTED ADDRESS"
9
C. DENIAL OF PETITIONERS DUE PROCESS

11

D. THE ARIZONA SUPREME COURT INCONSISTENTLY APPLIED THE
DEFINITION OF STANDING AS A QUALIFIED “ELECTOR" IN TWO
SEPARATE ELECTION CASES INVOLVING THE SAME PETITIONER

15

E. BACKGROUND OF 2020 ELECTION CONTEST ALLEGING WIDESPREAD
ELECTION FRAUD
a.

WHISTLEBLOWER INVOLVEMENT

18
19

vii

b. Common Affiliations of Scott Koch (Man Who Confessed to Illegal Ballot
Fraud Scheme)

22

c.

KOCH CONFESSION

d.

VOTER

INTEGRITY

23
PROJECT

IRREGULARITIES

AND

VOTER

RECORD
29

F. COMPLAINT VERIFICATION AFFIDAVIT

31

G. REQUESTED RELIEF

34

CONCLUSION

37

viii

TABLE OF APPENDIX CONTENTS
Appendix A: Arizona Supreme Court Decision Order...........................
Appendix B: Ariz. Supreme Court Motion for Reconsideration........................
Appendix C: Trial Court Ruling....................................
Appendix D: 2010 Supreme Court Ruling............
Appendix E: Supreme Court Docket...........................
Appendix F: Complaint Filed Dec 7th, 2020...........................
Appendix G: Amended Complaint Filed Dec 7th, 2020...........
Appendix H: December 8th, 2020 Filing...........................
Appendix I: Motion to Amend and Second Corrected Complaint.....................
Appendix J: Lower Court Complaint Motions to Dismiss.................................
Appendix K: Hobbs Notice of Filing............................
Appendix L: Transcripts Lower Courts and 2010...........................
Appendix M: Supreme Court Opening Brief.........................
Appendix N: Combined Response Supreme Court.......................
Appendix O: Supreme Court Reply Brief..............................
Appendix P: Election Integrity Grassroots Project.................................
Appendix Q: Scott Koch confession transcript......................
Appendix R: Election Center Eyewitness Affidavit Steve Daniels...................
Appendix S: IT Expert Opinions...................................................
Appendix T: Maps and Other Evidence....................................................
Appendix U: Arizona Statutes.............................................
Appendix V: 18,123 Late Registered BUT voted data, Maricopa County Data,

al
al4
a28
a36
a46
a50
a89
al39
a254
a316
a376
a387
a545
a612
a649
a840
a990
a996
a999
al029
al063
al085

ix

TABLE OF AUTHORITIES
Supreme Court Opinions
Allen v. Wright,
468 U.S. 737, 104 S. Ct. 3315 (1984).............................

2

Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986)..........................................................

13

Baldwin v. Fannon,
810 F. App'x 578 (9th Cir. 2020)....................................

31

Bennett u. Napolitano,
81 P.3d 311 (Ariz. 2003).... .............................................

1

Bird v. Glacier Elec. Coop., Inc.,
255 F.3d 1136 (9th Cir. 2001)........................................

31

Bowyer v. Ducey, No. CV-20-02321-PHX-DJH,
2020 WL 7238261 (D. Ariz. Dec. 9, 2020)....................

2

Burson v. Freeman,
504 U.S. 191, 112 S. Ct. 1846 (1992)..............................

18,19

Claiborne u. Blauser,
934 F.3d 885 (9th Cir. 2019)...........................................

31

Democratic Nat'l Comm. v. Hobbs,
948 F.3d 989 (9th Cir. 2020)...........................................

12

eBay Inc. v. MerchExchange,
547 U.S. 388, 391 (2006)..................................................

34

Eye Dog Found, v. State Bd. of Guide Dogs for the Blind,
67 Cal. 2d 536 (1967)........................................................

4

Ferrara v. Belanger,
18 Cal. 3d 253 (1976).........................................................

3

First Natl. Bank v. Bellotti,
435 U.S. 765 (1978).............................................................

19

Galloway v. Vanderpool,
69 P.3d 23 (Ariz. 2003)....................................................

16

Grounds v. Lawe,
67 Ariz. 176, 187 (1948)..........................

17,18

Harper v. Virginia State Board of Elections,
383 U.S. 663 (1966)....................................

11
Independent Training & Apprenticeship Program v. California Dep’t of Indus
Relations,
730 F.3d 1024 (9th Cir. 2013) ..

34

Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992)............................

1,2

Maya v. Centex Corp.,
658 F.3d 1060 (9th Cir. 2011)............

2

Mi Familia Vota v. Hobbs,
977 F.3d 948 (9th Cir. 2020)..............

35

Planned Parenthood v. Casey,

505 U.S. 833 (1992).......................

3

Purcell v. Gonzalez,
549 U.S. 1 (2006) (per curiam).............

,iv.

Reynolds v. Sims,
377 U.S. 533 (1964)................................

11

Roe v. Wade,
410 U.S. 113 (1973)...............................

3,4

Scott v. Harris,
550 U.S. 372 (2007)...............................

13

Spokeo, Inc. v. Robins,

136 S. Ct. 1540 (2016).....................

2

State v. Hickman,
68 P.3d 418, 427, 38 (Ariz. 2003)........

16

Walker v. Walker,
178 S.E.2d 46, 46 (Ga. Ct. App. 1970)

16

Wesberry v. Sanders,
376 U.S. 1, 17 (1964)..............................

11

xi

White v. Bateman,
358 P.2d 712, 71314 (Ariz. 1961)

16

Viejo Bancorp, Inc v. Wood,
217 Cal. App. 3d 200, 205 (1989)

4

U.S. Constitution
U.S. Const. Amend. I......................................

5,6,7,11

U.S. Const. Amend. XIV.................................

passim

U.S. Const, art. Ill, § 2, cl. 1 (amended 1795)

1,2

State Statutes
Ariz. Rev. Stat. § 16-101

15,16

Ariz. Rev. Stat. § 16-120

12

Ariz. Rev. Stat. § 16-153

9

Ariz. Rev. Stat. § 16-165

9,10

Ariz. Rev. Stat. § 16-625

5

Ariz. Rev. Stat. § 16-672

16,32

Ariz. Rev. Stat. § 16-677

5,35

Ariz. Rev. Stat. § 41-165

10,11

Ariz. Rev. Stat. § 41-166

9

Ariz. Rev. Stat. § 41-168

9,10

1

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a Writ of Certiorari to review the final decision
order, and denial of reconsideration by the Arizona Supreme Court.
OPINIONS BELOW
The Arizona Supreme Court reported its decision order at Burk u. Ducey, Arizona
Supreme Court No. CV-20-0349-AP/E.L. (Ariz. Jan. 5, 2021). The Pinal County
Superior Court case number is CV2020-01869, and the decision is attached.
(Appendix A, C).
STATEMENT OF JURISDICTION

The Arizona Supreme Court entered a decision order on January 5, 2021 and entered
an amended decision order on January 6, 2021. It denied Petitioner’s Motion for
Reconsideration on January 26, 2021. This Court has jurisdiction under 28 U.S.C. §
1257(a).
Under the U.S. Const, art. Ill, § 2, cl. 1 (amended 1795). Federal courts may not
redress a grievance unless there is an actual case or controversy. A Petitioner must
have suffered direct harm, and the stake in the outcome must be personal. Otherwise,
an aggrieved person’s remedy is through the legislative branch's political process
rather than the Court. When shared by all or a large class of citizens, generalized
harm is generally insufficient to confer standing. Bennett u. Napolitano, 81 P.3d 311,
316 (Ariz. 2003) (legislators failed to prove palpable injury personal to themselves),

2

Lujan, 504 U.S. at 577, Bowyer v. Ducey, No. CV-20-02321-PHX-DJH, 2020 WL
7238261 (D. Ariz. Dec. 9, 2020) (electors failed to prove palpable injury personal to
themselves).

Article III standing requires a Plaintiff, “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.” U.S.C.A. Const. Art. 3, 28 U.S.C. § 2, cl. 1.
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016). The “line of causation” between the
Respondents’ actions and alleged harm must be more than “attenuated.” Allen, 468
U.S. at 757; Maya, 658 F.3d at 1070.

Here, Petitioner has a distinct and palpable injury expressed by clear implication
when Respondents failed to verify in their records in 2010 Petitioner was a protected
address voter under Ariz. Rev. Stat. § 16-153. This lack of verification resulted in the
illegal cancellation of her registration and disenfranchisement of her vote while illicit,
votes were counted. The Court denied Petitioner’s right to redress her grievance in
the form of an election contest because Respondents canceled her voter registration.
As further discussed below, the Court can redress her direct harm through the
equitable injunctive relief requested.

This case does not present a non-justiciable political question. Here, the Respondent
Governor and Arizona legislature assert they have explicitly delegated the power and
authority to the courts to review any election fraud or challenge filed by any “elector.”

3

See tweet dated November 30th and copy submitted as evidence by Respondent
Governor in lower Court in this case (Appendix J, T).

Thus, Petitioner presents more than a simple non-justiciable generalized grievance,
or political question and this Court has jurisdiction to hear her constitutional and
election challenge-related claims.

MOOTNESS EXCEPTION
Petitioner’s complaint is not moot merely because the 2020 election has passed. This
case presents issues of widespread public importance. Her claims fall under the longheld mootness exception because they are, “capable of repetition, yet evading review.”
Roe v. Wade, 410 U.S. 113 (1973), holding modified by Planned Parenthood v. Casey,
505 U.S. 833 (1992), see also Ferrara v. Belanger, 18 Cal. 3d 253, 259 (1976)
(completed election did not moot the matter given the critical need to interpret
election statutes).

In Roe, the Court held the natural termination of Roe's pregnancy did not moot her
suit. If litigation involves a set of circumstances that are, “’capable of repetition, yet
evading review,’ it is an exception to the usual,federal rule that an actual controversy
must exist at review stages and not merely when the action is initiated.” Id. at 113.
Much like in Roe, where the gestation period of pregnancy was so short that
circumstances effectively denied any type of appellate review, the same is true with

4

an election cycle and dis-enfranchisement of a citizen’s vote. Should these
circumstances reoccur, resulting in the same harm, there is no circumstance where
an appellate review of these could occur before her grievance could be reviewed. It is
possible the events could reoccur because Petitioner’s protected address info is
withheld in the public record from regular election office workers, and the Court has
made it clear in its ruling that the definition of “elector” is “unclear.”

A declaratory relief action about the constitutionality of a statute may not be
dismissed where "there remain material questions" and the relief granted would
"encompass future and contingent legal rights." Eye Dog Found, v. State Bd. of Guide
Dogs for the Blind, 67 CaL 2d 536, 541 (1967). Doing "complete justice" means not
leaving unresolved questions that "would preclude a party from litigating its liability
on an issue still in controversy." Viejo Bancorp, Inc. v. Wood, 217 Cal. App. 3d 200,
205 (1989). This case provides an opportunity to address the constitutional issues
that will likely reoccur in the future.

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

The Fourteenth Amendment to the Constitution provides in pertinent part: “No
state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person .
. . due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. Amend. XIV.

5
All relevant Arizona Statutes in Appendix U.
STATEMENT OF THE CASE
This action is brought to secure equitable relief resulting from Defendants' unlawful
deprivation of Plaintiffs rights, privileges, and immunities guaranteed by the Equal
Protection and Due Process Clause of the U.S. Const. Amend. XIV, the U.S. Const.
Amend. I, and the laws of Arizona and the United States. Petitioner contends the
juxtaposition of unqualified voters having their vote counted in the 2020 election,
while a real person (Petitioner) was illegally denied her voice is the heart of her
constitutional and election challenge claims.
The State illegally canceled her voting registration, resulting in her inability to cast
a vote legally. The Court later denied her the right to redress her grievances and to
access the paper ballots for review and verification as part of her election challenge.
In line with Ariz. Rev. Stat. § 16-677 of the election contest statutes, Petitioner may
legally access the paper ballots to verify how widespread an election fraud issue may
be. This information is vital to enabling her to fully participate as a member of the
political community for future elections and communicate any concerns to her
appropriate elected representatives. Under Ariz. Rev. Stat. § 16-625, these paper
ballots are held unopened and unaltered for 22 months, allowing time for an election
challenge case to go through the entire appellate process before they are destroyed.
The Arizona Supreme Court did not dismiss Petitioner’s case on the merits and
specifically affirmed such in its ruling. Instead, the Court declined to remand for an

6

evidentiary hearing based on the inconsistent opinion that she was not an “elector”
qualified to bring an election challenge because she did not provide proof of attempts
to re-register, and the Court process is not how a person registers to vote. This opinion
seems to have missed the point. Petitioner was illegally denied her right to vote, along
with her right to bring forth an election contest.
Whether or not she attempted to register again after her illegal cancellation, while
the Court system was arbitrarily moving around the registration deadlines, was
irrelevant and to the question before the Arizona Supreme Court. However, she
contends if the Ninth Circuit had not modified the voter registration deadline, the
Petitioner could have registered, cast her vote, and brought her election challenge
with no question about her status as an “elector.”
The question before the Court was whether her case was properly dismissed by
summary judgment without an opportunity for an evidentiary hearing. At an
evidentiary hearing, Petitioner would have presented evidence of her attempts to re­
register along with her case. Petitioner contends pre-evidentiary dismissal was
inappropriate and amounted to a grave intrusion on her right to redress.
Additionally, the Supreme Court opined she did not qualify to bring her challenge as
an elector in 2021. In 2010, the same Arizona Supreme Court, in a case involving the
same Petitioner, without a change in her voter registration status or the statutory
definition of an elector, opined she was qualified as an elector to bring a challenge.
The doctrine of stare decisis should have precluded the Court from arbitrarily

7
changing the definition of “elector” based on judicial whims and personal preferences,
especially without a reasonable explanation for its departure from prior precedent.
The State election challenge statutes do not use the term “qualified elector.” In other
subsections of Arizona’s election statutes, including the election statute at issue, the
language merely uses the term “elector” without the modifier “qualified.” In 2010, the
Arizona Supreme Court affirmed the trial court’s ruling that Petitioner had proved
she was an “elector” by merely proving that she was eligible to register to vote under
the criteria in id. § 16-101 (LexisNexis). Petitioner proved her eligibility as an
“elector” by proving the elements of being “qualified to register” in both her 2010 and
2020 election challenges in the same manner with an affidavit. Yet, the ruling of the
Arizona Supreme Court in 2021, was the exact opposite of its 2010 ruling involving
the same set of facts.
This case involves not only the unreasonable deprivation of Petitioner's right to vote
and Fourteenth Amendment Equal Protection and Due Process, but also denial of her
First Amendment right to redress and verify the actions of her Government through
the prescribed process for transparency (an election challenge filed properly within
five days of certification of the States election). This case strikes at the heart of our
Republic’s foundational principles: respect for individual rights, free and fair
elections, transparent Government, access to the Courts for a meaningful hearing,
judicial integrity, and the rule of law.

8
ARGUMENT
A. PETITIONERS BACKGROUND
Petitioner is a single mother of five children and two grandchildren who participates
in the statutorily enacted Arizona Address Confidentiality Program to protect herself
from her former husband, who perpetrated multiple domestic violence incidents upon
her and was responsible for the death of one of her children. Petitioner has an
Americans with Disabilities Act (“A.D.A.”) qualifying disability resulting from her
medical condition known as Pulmonary Arterial Hypertension (“PAH”). Her PAH
requires supplemental oxygen and limits her functional ability, which results in
frequent and sometimes extended periods of hospitalization and disability.
Petitioner was a licensed nurse for 26 years and worked for the Arizona Department
of Health Services, conducting medical facility licensing surveys and investigations
as a Federal SMQT Surveyor. She earned a bachelor’s in social work and attended
graduate school in social work. She is also the former President of the Gilbert Unified
School District Governing Board. She has engaged in numerous community service
projects and front-line disaster work. In 2014, after serving two years on an education
advisory committee, Petitioner was officially recognized by Congress for her
“outstanding and invaluable service to the community.” She is also attending law
school part-time and is in her third year.

9
B. ADDRESS CONFIDENTIALITY PROGRAM AND “PROTECTED
ADDRESS”
Respondent

Secretary

of State

Hobbs

administers

the Arizona Address

Confidentiality Program (“A.C.P.”) and oversees elections. The ACP protects crime
victims, judges, and law enforcement personnel who have verified safety concerns
from their physical addresses in voter registration and other public records.
Participants use a “substitute address,” which serves as the person's legal address in
public records to ensure safety. A protected address voter cannot register online for
this status. The person must mail paperwork or appear in person, and the particular
process delays registration by approximately one to two weeks.
Between 2006 and 2015, Petitioner met the criteria and was registered as a protected
address voter under Ariz. Rev. Stat. § 16-153 directly through the County elections
department. Ariz. Rev. Stat. § 16-153 only protects voter registration records, while
the ACP protects all government records and offers more comprehensive services and
support to crime victims.
After having her voter record protected for several years under 16-153, in 2015,
Petitioner enrolled in the A.C.P. program under Ariz. Rev. Stat. § 41-166(D) voter
registration records. At no time shall a voter registered to vote under either statute
protecting registration records be subject to cancellation under Ariz. Rev. Stat. § 16165 for being “unable to verify the physical address,” since Ariz. Rev. Stat. § 41-168
strictly prohibits disclosure of an eligible participant’s physical address.

10
When registering to vote as a protected address voter, all participants are informed
they must always vote for a “provisional” ballot unless they request a mail-in ballot
because a polling place will not be able to access their voter record to verify their
address. Unlike a typical voter, who would be alerted at the polls, there is a problem
with their record if they did not show up on the rolls, a protected address voter would
not. Thus, a protected address voter may have their vote disenfranchised over
multiple elections until the person is overtly made aware of the problem.
Respondents asserted in the trial court by affidavit that Petitioner’s voter registration
was canceled as of July 22, 2010, and thus she was not registered to vote. Even though
Respondents assert that Petitioner’s voter registration was canceled in July 2010,
Petitioner received a mail-in ballot for the November 2, 2010 election. This confirms
that despite her registration being canceled without her knowledge, Petitioner cast
an illegal vote in the November 2010 election as well as in the subsequent elections
when she cast a provisional ballot leading up to finding out she was not registered in
2020. Unbeknownst to Petitioner, until she found out in 2020, her own vote for herself
in the 2010 school board election was also likely disenfranchised. Regardless, she was
elected, served a four-year term in office but did not seek re-election.
Shortly before the 2020 election cycle, Merri Tiseth at Respondent Secretary of State’s
office notified Petitioner and stated that her voter registration had been
inappropriately canceled as being “unable to verify address,” and that should not have
occurred. A “protected address” cannot be verified. Ariz. Rev. Stat. § 41-165 prohibits

11

requiring verification of a protected address voter’s address. Tiseth told Petitioner
she would have to re-register. However, due to Petitioner's medical condition
resulting in an extended hospitalization and incapacitation, she was unable to re­
register complying with the special process for protected address voters before the
2020 deadline.

The trial court dismissed Petitioner’s Fourteenth Amendment Equal Protection, Due
Process,

and 42 U.S.C.

§

1983 claims, which alleged that the statutes'

unconstitutional application had deprived her of her right to vote in the 2020 election.
As a result of the unconstitutional denial of her right to vote, the Courts then denied
her First Amendment right to redress using the cancellation of her voter registration
and inconsistent definition of “elector” as justification for denying her standing to
bring an election challenge. An unconstitutional application of the statute denying
her right to vote, should not preclude her from bringing forth an election contest,
especially when this did not prevent her in a prior case.

C. DENIAL OF PETITIONERS DUE PROCESS
“No right is more precious in a free country than that of having a voice in the election
of those who make the laws...” Wesberry v. Sanders, 376 U.S. 1, 17 (1964). Qualified
citizens' right to vote in a state election involving federal candidates is recognized as
a fundamental right under the Harper v. Virginia State Board of Electors, 383 U.S.
at 665; see also Reynolds, 377 U.S. at 554 (The Fourteenth Amendment protects the
right of all qualified citizens to vote in State as well as in Federal elections.).

12

Additionally, “[t]he right to vote freely for the candidate of one’s choice is of the
essence of a democratic society, and any restrictions on that right strike at the heart
of representative government.” Democratic Nat'l Comm. v. Hobbs, 948 F.3d 989 (9th
Cir. 2020)

Since 2002, Respondent Secretary of State has received several large Federal grants
to implement the Help America Vote Act (“HAVA”). In relevant part, the HAVA 42
USC 15483, 28 U.S.C. § 303(4), ensures “the State election system shall include
provisions to ensure that voter registration records in the State are accurate and are
updated regularly, including the following: (B) Safeguards to ensure that eligible
voters are not removed in error from the official list of eligible voters.” (see appendix
T). As part of the conditions of accepting these large Federal grants, including
$8,397,299 on January 30, 2020, Respondent agreed to maintain ongoing compliance
with all sections of the Act (Appendix L). Respondents failed to comply with the
section ensuring safeguards protecting eligible voters like Petitioner, from being
removed in error off the official eligible voters list. As a direct result of Respondents’
non-compliance, Petitioner’s vote was disenfranchised.

The Trial Court dismissed Petitioner’s claims of denial of her right to vote under
Equal Protection and election contest without an evidentiary hearing because she did
not vote, (see Appendix C, F, H). It is a violation of Ariz. Rev. Stat. § 16-120, for a
person to knowingly vote in an election for which they are not registered. Petitioner
learned just before the election in 2020 that her registration had been canceled. It

13

would have been illegal for Petitioner to vote in the election. Yet, the Trial Court
granted Respondents’ Motion to Dismiss (“MTD”) because Petitioner did not vote
when Petitioner asserted, she was making claims of denial of Equal Protection on the
grounds she was deprived of her right to vote (Appendix H, Appendix L pp451, line
8, pp422, line 10, 390, pp418 line 23).

Anderson v. Liberty Lobby, Inc., 477 U.S. 242 (1986), when deciding a summary
judgment motion, the Judge's function is not to weigh the evidence and determine the
matter's truth to determine whether there is a genuine issue for trial. Fed. R. Civ. P.
56(c), 28 U.S.C.A. A Petitioner asserted at the time, when deciding whether to grant
Respondents’ MTD, the Court shall view the record in a light most favorable to the
party opposing the motion. Scott v. Harris, 550 U.S. 372, 378 (2007). The trial court
did not adhere to this standard. Petitioner appealed the summary dismissal to the
Arizona Supreme Court.

The Arizona Supreme Court upheld the trial court’s pre-evidentiary dismissal. The
Court analyzed that her case should not be remanded because she did not present
evidence of attempts to seek reinstatement of her illegally canceled voter registration.
Petitioner did not present evidence of her attempts to re-register because the Judge
gave “explicit” instruction that she could not present any evidence if the Respondents
did not raise the issue in their MTD (See appendix L, transcript pp399, line 12).
Respondents specifically requested that the Judge instruct Petitioner that she could
not raise any issues or present any evidence that Respondents’ did not raise in their

14

MTD, and the Judge did so. Defendants did not raise in their MTD that Plaintiff did
not seek reinstatement of her voter registration. Thus, she did not present such
evidence.
If the Trial Court allowed an evidentiary hearing and had not restricted her
presentation of evidence to only those issues the Respondents brought forward in
their MTD, Petitioner would have presented she was a “protected address” voter
under Ariz. Rev. Stat. § 16-153, when her voter registration was apparently cancelled
in 2010.
When the Arizona Supreme Court asserted it was relevant whether Petitioner
attempted to re-register after the illegal cancellation, the Petitioner filed a Motion
for Reconsideration. She filed this evidence even though she had been restricted
from raising it in the lower Court, and believed that she was not allowed to
introduce new evidence to the Supreme Court unless the Respondents raised that
particular issue as she had been instructed by the Court below (Appendix L, pp 399,
line 12). The Arizona Supreme Cotirt denied re-hearing on January 26, 2021.
In her motion, Petitioner presented evidence that shortly after learning of the illegal
cancellation of her voter record, Petitioner was incapacitated and hospitalized as a
result of her qualifying Americans with Disabilities Act (“ADA”) disability and as a
result was unable to re-register under the specialized process and extended
timeframe required for “protected address” voters. If the Ninth Circuit had not stayed
the voter registration extension granted by the District Court, Petitioner could have

15
registered and even planned to do so during that period (Appendix B). When the
Ninth Circuit granted only a two-day grace period, she was unable to re-register
during that time through the longer and more involved process required by the
address confidentiality program (Appendix B).
Thus, the Arizona Supreme Court procedurally denied Petitioner’s right to Due
Process.
D. THE ARIZONA SUPREME COURT INCONSISTENTLY APPLIED THE
DEFINITION OF STANDING AS A QUALIFIED “ELECTOR” IN TWO
SEPARATE ELECTION CASES INVOLVING THE SAME PETITIONER
In August 2010, Petitioner filed an election challenge related to a school board
candidate, Adeladia Severson. Severson sought to dismiss on the grounds that
Petitioner was not an “elector.” There was a dispute whether “elector” meant simply
proving the qualifications to register listed in Ariz. Rev. Stat. § 16-101 (LexisNexis),
such as being over eighteen, able to make a mark, not adjudicated incompetent, and
not having a felony. Petitioner proved in a supplemental motion that she was
qualified to register to vote (Appendix D). The Court held in that case by proving that
Petitioner was qualified to register, she had established her qualification as an
“elector” to bring the challenge. In this 2010 case, the County Elections department
supported Petitioner’s side of the case.
On August 30, 2010, several weeks after Respondents show Petitioner’s voter
registration had already been canceled, she was deemed by the Trial Court and

16

affirmed by the Supreme Court, as an “elector,” with qualified standing to bring the
election contest. Severson appealed the August 30, 2010, lower court ruling. At that
time, the Arizona Supreme Court held that Petitioner was qualified as an “elector”
with standing to bring the election contest.

Between September 9, 2010, Arizona Supreme Court ruling affirming the Trial
Court’s holding that Petitioner met the definition of “elector,” and its January 5, 2021
ruling that she was not an “elector,” neither the language in Ariz. Rev. Stat. § 16-672
(LexisNexis) nor had Petitioner’s voter registration status changed according to
Respondents’ own affidavit.

In Galloway v. Vanderpool, 69 P.3d 23, 27 (Ariz. 2003), the Arizona Supreme Court
held that “[t]he doctrine of stare decisis, which requires us to give weight to previous
decisions addressing the same issue, seeks to promote reliability so that parties can
plan activities knowing what the law is.” See White v. Bateman, 358 P.2d 712 (Ariz.
1961). “Stare decisis has even greater weight where the precedent relates to the
interpretation of a statute.” State v. Hickman, 68 P.3d 418, 427 (Ariz. 2003); Walker
v. Walker, 178 S.E.2d 46, 46 (Ga. Ct. App. 1970).

Here, based on the 2010 decision, Petitioner relied on qualifying as an “elector” for an
election challenge, meaning she needed only to prove they were qualified to register
to vote under Ariz. Rev. Stat. § 16-101, and had done so. Petitioner argued at the
Trial Court during the oral argument on Respondents’ MTD, that in the prior 2010
ruling, she had been deemed qualified as an elector, (see appendix D, and transcript

17

appendix L). She also entered the 2010 ruling and her evidence of being eligible to
register, as part of her response to Respondents’ affidavit and “notice” provided to
Petitioner forty-five minutes before scheduled oral argument when one of the nine
lawyers on the Government side inadvertently forgot to include Petitioner on their
filings with the Court.

Petitioner contends the Trial Court ruled correctly in 2010 because interpreting
“elector” as anyone who is qualified to register to vote aligns with legislative intent
for citizens to fully participate in the political community, whether or not they
exercise their right to vote, should be able to bring forth an election challenge alleging
fraud or misconduct, just as anyone can file a police report should they witness a
crime. To interpret “elector” to mean only registered voters who exercise their rights,
especially when the word “qualified” does not precede “elector” in the statute as it
does in other places. This could create an avenue where tyranny and abuse could run
rampant. Whether the County Election Officials intentionally or unintentionally
cancel a citizen’s voter registration, reading “qualified” into the statute, may further
deprive that person from bringing forth an election contest should they witness a
fraud or simply desire accountability through those statutes designed for
transparency.

When analyzing whether or not Petitioner could file her amendment, the Arizona
Supreme Court cited Grounds v. Lawe, 67 Ariz. 176, 187(1948), "we are not permitted
to read into" the election challenge statutes "what is not there." The word “qualified”

18

isn’t there in id. § 16-672 (LexisNexis). The Court contradicted itself between its 2010
opinion when it supported the trial court not reading the word “qualified” into the
statute upholding Petitioners standing as an elector. Petitioner was not registered to
vote at that time, according to Respondent's own affidavit. In 2021, the Court read
into the statute that Petitioner needed to be a “qualified elector” under the definition
which would require the voter to be registered.

Finally, in the same decision, the Court held the definition of “elector” in the statute
is “unclear.” What is “unclear” is the Court's decision and the lack of explanation for
its inconsistency. Since the underlying relevant facts hadn’t changed between the
opinions, the Court seems to change its definition of “elector” depending on which
side of the case the Government aligns itself with. To avoid this confusion, the
doctrine of stare decisis suggests the Court should cite its supporting rationale for a
departure from prior precedent, especially when the underlying facts and
circumstances haven’t changed.

Thus, Petitioner requests the Court uphold the doctrine of stare decisis and interpret
“elector” for standing the same way in 2021 as it did in 2010, regarding the same
Petitioner, regardless of whether or not the Government supports her in the case.
E. BACKGROUND OF 2020 ELECTION CONTEST ALLEGING
WIDESPREAD ELECTION FRAUD

Voters have a “right to cast a ballot in an election free from the faint of intimidation
and fraud,” Burson v. Freeman, 504 U.S. at 211. Preserving the integrity of the

19

electoral process,

preventing corruption,

and

sustaining the

active,

alert

responsibility of the individual citizen in a democracy for the wise conduct of
Government are interests of the highest importance; preserving the individual
citizen's confidence in Government is equally important. First Natl Bank u. Belotti,
435 U.S. 765 (1978).
The purpose of the laws protecting voter registration through the protected address
process allows citizens such as Petitioner to safely protect their address while
participating in the voting and electoral process, ensuring government accountability
through election contest statutes.

As Respondent Ducey in his MTD, suggested by his “tweet,” the election contest
statutes allows any citizen elector to contest an election within five days of its
certification and to access the ballots for verification under the conditions outlined in
State law to preserve individual citizens confidence in their Government.
a. WHISTLEBLOWER INVOLVEMENT

A whistleblower contacted the petitioner through a friend in her pulmonary
hypertension community. This Whistleblower is a Supervisor at a Seattle FedEx
airport facility and has worked at the facility for six years. With a desire to remain
anonymous if possible, she wanted to report what she witnessed in time for
authorities to access the facility's video recordings and data logs. She had not been
successful in making contact with local Federal authorities.

20

The Whistleblower reported that more than a thousand pounds of a suspicious
shipment, labeled as election mail ballots in canvas bags, came through in what she
described as a “ghost shipment.” A ghost shipment meant that when scanned, it
“triple beeped,” showing it was not properly processed through the U.S. Postal Service
or tracked through the process. This shipment arrived on an unscheduled truck after
a suspicious man had been in the secure area inquiring about ballots. She confirmed
her local processing facility does not directly process or receive international mail or
military ballots. Those are processed or transferred in a separate area on the tarmac
and do not come through her facility.

The Whistleblower’s Seattle FedEx facility shares a tarmac area with the dock for
Hanjin (Global. Hanjin Global owns South Korean Air Cargo (Appendix T, pp!031).
Routine FedEx policy is to keep the mail moving regardless of tracking status.
Therefore, Whistleblower instructed her staff to quickly load the suspicious ballots
onto the flight bound for the FedEx Memphis, Tennessee hub. The questionable
ballots came through starting November 5, 2020 and continued to move through her
facility on a daily basis for another week. The ballots were dropped off by unscheduled
trucks and once by a private vehicle. Whistleblower reported that once mail arrives
at Memphis from her facility, the cargo is then transferred to an outside private
ground semi-truck carrier on the tarmac, usually Matheson Postal Services final
destination to areas such as Georgia, Pennsylvania, and the Carolinas.

21

On November 7, 2020, an aide to an outspoken, well-known Democrat supporter (who
wished to stay anonymous because his children were later threatened), gave a tip to
a journalist Ryan Hartwig, that a South Korean airplane carrying illegal ballots had
arrived at Sky Harbor Airport on November 5 and had been unloaded. The plane
came from Seoul, South Korea, bypassing customs on specific order from the
Department of Homeland Security (Appendix T, pp 1041). Upon information and
belief, all routine customs restrictions on certain planes had been lifted so COVIDrelated PPE could be expeditiously transported. Although this aide was reporting the
tip on the 7th, he said the plane that brought the illegal ballots on November 5, 2020,
was still at Sky Harbor airport and would be leaving that night for Seattle,
Washington.

That night on the 7th, several individuals, including journalist Ryan Hartwig (former
Project Veritas Facebook content moderator whistleblower), Tom Van Flein
(congressman Gosar’s chief of staff), Josh Barnett (District 7 congressional
candidate), Marko Trickovic, and others, went to the airport (Appendix T, pp!037 and
1038). They recorded the plane's video, capturing the tail number and several
individuals loading cargo onto the aircraft. Josh Barnett and another witness
followed the men from the tarmac to their house and recorded the address. While still
at the airport on the 7th, Marko Trickovic contacted Pinal County Sheriff Mark Lamb
to report the suspicious plane and let him know there was video evidence. Trickovic
later told Lamb that the video of the aircraft was given to Petitioner, and she had
positively identified one of the men on the tarmac and ran a criminal background

22
check on him, which included narcotics and weapons charges (Appendix T, pp 1034).
Trickovic was contacted by a man named John Shattuck and he was put in touch with
Petitioner.
b. Common Affiliations of Scott Koch (Man Who Confessed to Illegal
Ballot Fraud Scheme)
Sheriff Mark Lamb is a close associate of both Scott Koch and Shawn Wilson, owner
of Mayhem Security Solutions, an international security company that does contract
work for the Department of Defense (“DOD”) under Homeland Security (Appendix T,
PP 1040). Shawn Wilson confirmed that Scott Koch is credible, does have DOD
“security clearance” to access planes at the airport, and was a former Sheriffs deputy.
Shawn Wilson, Scott Koch, and Tim Foley, and Mark Lamb, work closely with the
Department of Homeland Security doing reconnaissance work with cartels and child
sex trafficking at the Mexican border. Wilson confirmed Koch is also a pilot and flies
helicopters and planes listed in “trusts” or chartered planes as part of their border
reconnaissance work.
John Shattuck told Petitioner that he is in frequent communication with Pentagon
officials and acts as a liaison between the Department of Defense and the border
reconnaissance group that Wilson is involved with. Wilson and Kochs associations
and professional ties with law enforcement and top level government officials also
confirm the reliability of Koch’s statements.

23

After providing video evidence of the plane and photos of the ballots taken at the
FedEx facility to Mark Lamb, Wilson and Koch were told that Petitioner had “video
recordings of guys on the tarmac with the plane,” had “identified at least one of the
guys on the tarmac,” and had a “whistleblower at FedEx with photos and security
camera evidence.”

c. KOCH CONFESSION

Scott Koch then sought out Petitioner to meet with her in person to discuss her
“security.” He mentioned he was aware of her involvement and the plane. Petitioner
agreed to meet with Koch. An associate of both Trickovic and Koch, told Petitioner
that Koch was a member of the Koch family and worked for the Department of
Defense (“DOD”).

When arranging to meet with Petitioner, Koch erroneously believed Petitioner had
video evidence implicating him and his associates in their criminal activity at the
plane. He thought Petitioners Whistleblower worked at the Phoenix FedEx and either
witnessed or had surveillance video of him and his guys taking the illegal ballots to
the Phoenix FedEx, as well as to the Maricopa County Election Center.

Upon meeting with Koch, operating on the belief Petitioner already knew
about his criminal involvement in the election rigging, he confessed that he
and “his guys” provided security services as illegal ballots were removed
from a plane, which were sent to Nevada via FedEx and U.S.P.S., while the
remainder were then transported to the Maricopa County ballot tabulation

24

center and inserted into the election. (Petitioner audio recorded this
conversation on her phone. See partial transcript Appendix Q. Full recording is
available).

**Note several eyewitnesses present at the Maricopa County Election center
positively identified Scott Koch and Shawn Wilson at the ballot tabulation center
“behind the secure line” while ballots were being received and counted (Appendix R).

Petitioner's home security system captured Koch at her home and the metadata from
her audio recording corroborates it was Koch who confessed during the lengthy
conversation in which he outlined details of the fraud scheme along with others'
involvement and motive. He explained the illegal ballots rigged the election in Biden’s
favor.

Koch’s recorded statement regarding his direct involvement is admissible to prove
the truth of the matter stated under hearsay exception Fed. R. Civ. P. 804(3).
Subjecting oneself to criminal liability qualifies as a statement against interest for
purposes of Fed. R. Civ. P. 804(3). Ariz. R. Evid. 804(b)(3);
“Statement Against Interest. A statement that:

(A) a reasonable person in the declarant’s position would have made only if the
person believed it to be true because, when made, it was so contrary to the
declarant’s proprietary or pecuniary interest or had so great a tendency to

25
invalidate the declarant’s claim against someone else or to expose the declarant
to civil or criminal liability.” Fed. R. Civ. P. 804(3)
During Petitioner's conversation with Koch on November 16, 2020, Koch asserted the
plane, from which he and his team unloaded the illegal ballots was in the care of the
Arizona National Guard. He indicated the plane was still at the Phoenix Sky Harbor
National Guard and would be departing that Thursday, November 19th.
At all relevant times, Respondent Governor Doug Ducey controlled the Arizona
National Guard planes. Koch asserted the South Korean Cargo plane was owned by
the United Arab Emirates. A private investigator confirmed that the UAE Express
had leased the South Korean Air cargo plane. Koch claimed that 419,000 Koch
asserted illegal ballots were delivered nationwide via multiple planes.
During Petitioner’s recorded conversation time stamped on November 16, 2020, Koch
said that nobody can stop the election rigging because “those [elite] families with
power and money controlling this are capable of ruining Trump financially.” He
stated that Trump’s loans with Deutsche Bank would be called due if he did not
comply. On January 9, 2021, Deutsche Bank announced it was severing ties with
Trump due to his involvement in the January 6, 2021, events at the Capitol.
Koch alleged with the power of the government faction behind it, using its
justification of the need for “national security,” there would be an intelligence­
gathering effort to uncover who has direct knowledge of the fraud in order to
neutralize that information.

26

Koch said if Americans knew their votes didn’t count, and those elites with money
and power controlled elections on both sides of the aisle, it would result in mass public
outrage and instability. He emphasized that damage control was necessary for
national security. Koch said after gathering intelligence, those powers will modify
and neutralize the records so that “national security” could be maintained.
Koch stated that those in power will continue to get away with election rigging
because they have power and resources to alter government records and ensure they
will not get caught. Koch said the Petitioner gathered evidence that “could not be
changed,” and that is dangerous.
Koch threatened if Petitioner did not stop and look the other way, she would be killed
in a car accident or staged suicide, arrested on false charges, or discredited in some
other way. Koch said the “businessmen” directing him and others were very powerful
and capable of carrying out the threats. Koch warned he worked for the DOD on
behalf of a “faction” of the U.S. government who believed they were doing what was
right in running illegal ballots and they wanted Trump out because he did not “play
fair.”
Koch said, “to get away with a fraud; one has to expose a fraud.” He said those in
power will admit to and present evidence of fraud in a controlled way so that everyone
will agree there was fraud, but it was just not enough to overturn the election. Koch
asserted the Courts will support the narrative as this will be part of the plan to calm

27

the people. Koch asserted on audio recording that the U.S. Supreme Court is “not an
unbiased third party” and will “go along with it [the plan].”

All attempts to report this information to authorities by Petitioner and others
involved has been thwarted. Local law enforcement refused to investigate, asserting
they do not investigate election fraud. Multiple calls to the F.B.I. resulted in one
return call with no message left. Petitioner filed a complaint with the Arizona
Attorney General’s election integrity unit in early November 2020, and there was no
follow-up or investigation (Appendix T, ppl036).

After hitting one roadblock after another with the executive branch, Petitioner
approached multiple Arizona Senators and Representatives in both November and
December 2020. Several Legislators at that time including House Speaker Rusty
Bowers and Senator Warren Petersen, told Petitioner that evidence of “election fraud”
was not for the Legislature to review because it did not have the means to hold
evidentiary hearings. Senator Petersen told Petitioner that authority to investigate
things such as this, had been delegated to the Courts through the Arizona election
contest statutes.

Petitioner's efforts to contact authorities did catch the attention of Senior National
Security Analyst, Jim Penrose. Penrose reportedly has seventeen years of meritorious
service with the National Security Administration (“NSA”) and served in key
leadership roles as Chief of the NSA Operational Discovery Center, Technical

28

Director for Counterterrorism, and Mission Manager for the NSA/CSS Threat
Operations Center.

Penrose expressed concern for Petitioner's safety and provided operational
management for a security team of approximately thirteen top military and law
enforcement professionals who came to Petitioner's home for seven weeks, providing
round the clock security (captured on Petitioner's home security system and
archived).

Early on, Petitioner was offered up to $100,000 if she would provide her audio
recordings of Koch and cooperate. Petitioner declined the financial offer asserting she
did not want any monetary exchange to affect her credibility in a future Court case.
She was also offered positions on boards to help advance her legal career, in exchange
for her cooperation.

At the end of December, Petitioner's iPhone (used to record Koch’s confession and
other involved parties), was forcibly taken by a member of her security detail. On
January 11, 2020, Petitioner was sent photographic evidence that her phone
identified by a picture of her and her grandson as the screen saver was at the Willard
Hotel in Washington D.C. in a room where Penrose and other high profile individuals
were present. Petitioner no longer felt safe with the security detail and relocated to a
more secure setting.

29

Petitioners evidence of the widespread election fraud contained in this petition,
including audio recordings, were backed up and securely transferred prior to the theft
of her phone.

d. VOTER

INTEGRITY

PROJECT

AND

VOTER

RECORD

IRREGULARITIES
Petitioner's case is supported by a large bipartisan grassroots effort of many
hardworking citizens who set out to assess whether or not there was voter fraud.

The data analyzed in the effort was obtained from Arizona Secretary of State, Pima
County and Maricopa County Recorder’s voter rolls, as well as through extensive
neighborhood canvassing efforts.

To date, these volunteers visited over 3000 addresses and acquired over 1,500
affidavits documenting voter irregularities. (52% necessitated an affidavit). These
voting irregularities include, but are not limited to:

Unknown voters registered and voting from the address canvassed

From one extra ballot to as many as 200 ballots received at one address
canvassed,

Registered address is an empty lot, undeveloped land, non-existent address,
commercial property, church, high school, government building, etc.,

30

• Voter was unregistered and without their knowledge did not vote but a vote
was cast in their name,

• Was registered and voted but their vote was not counted,

• Multiple poll workers who experienced/witnessed irregularities and attempted
to report to authorities but received no response.
Comparison and analysis of the canvassing data and the above-mentioned voter rolls
prove that nonexistent and ineligible voters cast votes in the 2020 election and that
they were counted by the Maricopa County Recorder. (Appendix P). This information
was cross referenced and verified by data from Respondents Secretary of State’s
database.

The Respondent’s own data, provided by the Maricopa County Recorder’s Office, post­
election (dated 12/4/20, 1/11/21, 2/5/21) prove that “modifications” were being made
to voter records. These alterations are further corroborated by evidence found in the
extensive canvassing effort.
Voters were illegally registered after the Ninth Circuit deadline of October 15, 2020,
and Respondents records show those votes were cast and counted (Appendix
V). When comparing snapshots of Respondents voter databases, several individual
records show backdated voter registrations with modification dates remaining the
same. In addition, several voters with same names and birth years, at the same
address, having two different voter id numbers and both recorded as voted. Evidence

31

of duplicate profiles of the same voter registered at different addresses, also show the
having voted more than once. See Appendix P, Summary of Findings updated Mar 2,
2021, pp841)

Thus, Petitioner asserts the backdating and modification of voter registrations,
duplicate registrations and twice counted votes, as well as votes from vacant lots,
along with the illegal ballots inserted into the election as asserted by Koch,
demonstrate Respondents intent to arbitrarily and without just cause, deny
Petitioner, a real person who just wanted to vote, Equal Protection of the law under
the Fourteenth Amendment of the U.S. Constitution.

F. COMPLAINT VERIFICATION AFFIDAVIT

Under the doctrine of “plain error,” the Supreme Court may reverse where: (1) there
was an error; (2) the error was obvious; (3) the error affected substantial rights; and,
(4) the error seriously affects the fairness, integrity, or public reputation of judicial
proceedings.” Claiborne v. Blauser, 934 F.3d 885, 893 (9th Cir. 2019). Baldwin v.
Fannon, 810 F. App'x 578, 581 (9th Cir. 2020), Bird v. Glacier Elec. Coop., Inc., 255
F.3d 1136, 1148 (9th Cir. 2001).

Petitioner asserts she submitted a timely complaint to the Pinal County Superior
Court filing counter on December 7, 2020, along with an affidavit on a separate
document verifying the facts contained in the complaint were true, and an election

32

challenge summons. The language of these documents presented to the filing clerk
mirrored the Arizona statute, but were not documents the clerk was familiar with.
According to the filing counter supervisor, Art Lopez, election contest cases were new
to that Court and there was a “learning curve.” When Petitioner presented the
documents at the counter on December 7, 2020 at 4:49pm, the clerk accepted the
complaint but mistakenly rejected her verification and summons which mirrored
A.R.S. 16-672, and said it needed to be on court forms and the clerk gave Petitioner a
Court summons form. The following morning on December 8, 2020 and before
Respondents were served, Petitioner filed an “amended complaint” with the
complaint verification embedded at the end of her complaint and filed a new summons
that looked more like a legal summons but still mirrored the statute, (see Appendix
H).

Within a day or so, the clerk and her supervisor realized the error of mistakenly
rejecting Petitioners filings at the counter and the supervisor Art Lopez reached out
to Petitioner to let her know that the clerk should not have rejected her documents
on the 7th. He said if she had those documents, she could bring them back and they
would be included as filed on the 7th. Petitioner told Lopez that she might have
shredded those originals because she filed an amended complaint the next day
embedding the verification and writing a more official looking summons. When
scanning Petitioner’s complaint filed on the 7th, the clerk left the record
“incompletely scanned,” only scanning half of the complaint into the record. Lopez
told Petitioner this was done so that they could include those originals if she brought

33

them back. (Appendix B). Petitioner was unable to locate those originals and likely
discarded them after they were rejected by the clerk and she filed her amended
complaint.
Here, Petitioner asserts this admitted error by the filing clerk and her supervisor is
undisputed and should fall under the plain error doctrine for appellate review. The
error of rejecting Petitioner’s verification affidavit and summons was plain enough
that it did not need to be brought to the attention of the clerk or her supervisor. The
error was discovered on the Court staffs own volition and it was the supervisor who
contacted Petitioner. Due to no fault of her own, Petitioner could not return the
original document because it had been discarded and Petitioner believed that the
filing of her amended complaint the following day had ensured her filing met the
requirement. The clerk’s error substantially affected Petitioner's rights because her
case was dismissed at the Arizona Supreme Court as a direct result of the error
(Petitioner's affidavit of verification not being included in the filing on the 7th). It
should be noted that the day before the Arizona Supreme Court entered its final
decision the Pinal County Superior Court re-scanned a “corrected” complaint filed on
the 7th (Appendix E).
Thus, Petitioner has presented evidence satisfying the elements showing the plain
error of the clerk, admitting to her mistake, resulting in the dismissal of Petitioner’s
case on the ground that this verification was not timely filed when it was. Dismissal
of her case seriously affects Petitioner's fundamental right to redress and hold her

34

Government accountable and undermines the fairness, integrity, and public
reputation of judicial proceedings.

Thus, in the interest of preserving integrity of the judicial process, especially since
this case is of widespread public interest, the Court should grant her petition and
correct such plain error already admitted by the Court clerk and her supervisor.
G. REQUESTED RELIEF

“To obtain the injunctive relief [Petitioner] must demonstrate; (1) actual success on
the merits; (2) that they have suffered an irreparable injury; (3) there exists no
adequate remedy at law; (4) the balance of the hardships justifies a remedy in
equity; and (5) that the public interest would not be disserved by a permanent
injunction.” Independent Training & Apprenticeship Program v. California Dept of
Indus. Relations, 730 F.3d 1024, 1032 (9th Cir. 2013) (citing eBay Inc. v.
MerchExch., LLC, 547 U.S. 388, 391 (2006).

Here, even the Arizona Supreme Court agreed Petitioners case was not dismissed on
merit. Her underlying case is strong and has substantial national significance. Because of
the Respondents actions, she has suffered direct harm and irreparable injury by the
disenfranchisement of her vote.

Petitioner suffered irreparable injury when her election contest was dismissed and
she was unable to redress her grievances prior to the certification of the election. There is

35

no alternative remedy available to the Petitioner to hold her Government accountable to
transparent, free, and fair elections other than by the granting of injunctive relief.

The balance of hardship favors Petitioner because any disenfranchisement of one’s
vote is of paramount public importance and should not be brushed aside. Every legal vote
matters.

Petitioner seeks to enjoin Respondents compliance with its HAVA grant agreement
ensuring no voters are removed the voting rolls in error, especially those similarly situated
like Petitioner with address protection.

Petitioner also seeks an injunction that for future elections Respondents safeguard
compliance with the Arizona Constitution requiring that only legal votes be counted.

Once Respondents knew Petitioner planned to file this Petition, Respondents
postured to conduct “audits.” It is believed by many on both sides of the aisle, that this
after the fact “audit” effort is being done solely for what Koch described as public
appeasement and for legal posturing related to this case, so they can argue there is no
need for the Court to allow Petitioner to conduct her own review or access the paper ballots
under A.R.S. 16-677.

Respondents refused to conduct an audit during the HAVA 90-day “safe harbor
period” after the election in which the hardware and software of the voting machines
legally could not be tampered with and any audits must comply with National Institute of

36

Standards and Technology (“N.I.S.T.”) and Cybersecurity and Infrastructure Security
Agency (“C.I.S.A.”) standards.

Instead, on February 2, 2021, the first day following the expiration of the “safe harbor
period,” Respondents conducted an audit in which they manipulated the software and
hardware in ways that did not comply with these standards. When Petitioner observed
auditors taking apart livestream cameras at the election center, the auditors removed
hardware from the machines and ran software overnight when they left the election
center. Petitioner engaged a team of individuals with experience and training in
Information Technology to record the livestream footage of the audit and analyze the
legitimacy of the audit. These individuals provided affidavits and a report. (Appendix S
ppl000-1028).

Given the allegations made by Koch, that those with “money and power” will use
government resources to gather intelligence and alter evidence in support of the
widespread election rigging, along with witness evidence contained in appendix P, of
Respondents “modifying” over 10,800 voter records between the November 4, 2020 election
and the filing of this petition, Petitioners respectfully ask that the Court consider the
Respondents audit data and efforts are not trusted by Petitioner or the citizens supporting
this case. Petitioner is not an elected official with something to gain or prove regarding
election fraud. She is just an average citizen seeking the truth so that she can fully engage
in her civic responsibilities.

37

Thus, Petitioner also requests the Court remand for a citizen led review of the ballots
in compliance with A.R.S. 16-677, followed by an evidentiary hearing.

CONCLUSION
The fundamental underpinnings of our democracy are at stake when even one
vote is disenfranchised. According to Koch’s confession, there were 417,000 illegal
ballots inserted into the election in Arizona and other States that were counted. The
right to cast a legitimate vote is sacred. Many Americans have fought and died to
preserve this right. In a Country based on principles of freedom and liberty, the vital
importance of free and fair elections cannot be overstated.
Petitioner and the many bipartisan average Americans who stand behind her,
are asking for just one thing; transparent, honest, free and fair elections, where
individual rights are honored and respected.
Thus, Petitioner respectfully requests this Court grant her Writ of Certiorari.

)

38

I, Staci Burk, under penalty of perjury hereby declare the information contained in
the above petition is true and correct to the best of my knowledge.

Respectfully submitted,

Staci Burk (Petitioner)
2487 S. Gilbert #106-609
Gilbert, Arizona 85295
(480)343-4518
staci@asu.edu
In proprium persona
March 3, 2021

